Highlights
Table of Contents




                    U.S. Postal Service’s
                    Delivering Results,
                    Innovation, Value,
Findings




                    and Efficiency
                    Initiative 42 –
                    Market New and
                    Existing Services
Recommendations




                    Audit Report
                    Report Number
                    DP-AR-14-005

                    September 10, 2014
Appendices




                                            Print
Highlights
Table of Contents




                    Highlights                                              Background                                                               by $16.65 billion by FY 2017. The objective of
                                                                                                                                                     DRIVE 42 is to retain and grow shipping and mailing services
                                                                            The U.S. Postal Service originally established 36 Delivering
                                                                                                                                                     through five projects. These projects aim to increase shipping
                                                                            Results, Innovation, Value, and Efficiency (DRIVE) initiatives in
                                                                                                                                                     revenue; retain and grow profitable mail revenue; increase
                                                                            fiscal year (FY) 2011 to improve its business strategy. DRIVE
                                                                                                                                                     online revenue and online customer satisfaction; increase gift
                                                                            aims to reduce the reported $20 billion gap between revenue
                                                                                                                                                     card and greeting card revenue; and support growth through
Findings




                                                                            and expenses by 2016 through data-driven programs and
                                                                                                                                                     brand health reporting.
                                                                            effective project management. DRIVE initiatives are supposed
                                  DRIVE 42 is one of                        to be bold and aggressive and have measurable outcomes.
                                                                                                                                                     Our objective was to determine whether the DRIVE 42 initiative
                            five marketing and sales                                                                                                 used established DRIVE project management processes.
                                                                            DRIVE 42 – Market New and Existing Services, is one of five
                       initiatives to increase revenue                      marketing and sales DRIVE initiatives, aims to increase revenue

                        by $16.65 billion by FY 2017.
Recommendations




                                                                                                                   The Postal Service’s DRIVE
                                                                                                                  guidelines have five key project
                                                                                                                      management phases:


                                                                                                            Hover over the numbers below to reveal the details of each phase.


                                                                                                                1            2             3            4             5
Appendices




                                                                                                             INITIATION   PLANNING     EXECUTING     MONITORING     CLOSING
                                                                                                                                                        AND
                                                                                                                                                    CONTROLLING


                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                                  Print                                 1
Highlights
Table of Contents




                                                                            What the OIG Found                                                   We also identified $3.4 billion in unsupported increased revenue
                                                                                                                                                 which management claimed for the shipping revenue and
                                                                            DRIVE 42 managers did not follow DRIVE project management
                                                                                                                                                 profitable mail projects. These issues occurred in DRIVE 42
                                                                            processes when planning and evaluating overall project metrics
                                                                                                                                                 because there is no independent audit process in DRIVE to
                                                                            and revenue goals. For example, management established
                                                                                                                                                 promote accountability and ensure that goals are measurable,
                                                                            a revenue goal of $5.2 billion for the shipping revenue and
                                                                                                                                                 realistic, and accurate.
Findings




                                                                            profitable mail projects without a system to accurately measure
                                                                            achievement. Also, the goal for increasing online revenue is
                                                                            not aggressive, as it calls for growth that is 50 percent less, on   What the OIG Recommended
                                                                            average, than that of the 3 years prior to DRIVE 42. Further,        We recommended management include goals that can be
                                                                            the cumulative goal of DRIVE 42 was $8 billion less than the         accurately measured and that reflect the $24.6 billion total of the
                                                                            combined goals of the five underlying projects. Consequently,        projects. We also recommended requiring that initiative leads
                                                                            management and evaluation of DRIVE 42 are based on                   follow established criteria to set bold and aggressive roadmap
                                                                            inaccurate information.                                              goals beyond past performance.
Recommendations
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                           Print                                    2
Highlights
                    Transmittal Letter


                                                                            September 10, 2014
Table of Contents




                                                                            MEMORANDUM FOR:	            EMIL J. DZURAY, JR.
                                                                            	                           DIRECTOR, STRATEGIC PLANNING
                                                                                                            E-Signed by Kimberly Benoit
                                                                                                       VERIFY authenticity with eSign Desktop




                                                                            FROM: 			 Kimberly F. Benoit
                                                                            				      Deputy Assistant Inspector General
                                                                            				       for Information Technology and Data Analysis

                                                                            SUBJECT: 	                  Audit Report – U.S. Postal Service’s Delivering Results,
Findings




                                                                                                        Innovation, Value, and Efficiency Initiative 42 – Market New
                                                                                                        and Existing Services (Report Number DP-AR-14-005)

                                                                            This report presents the results of our audit of the U.S. Postal Service’s Delivering
                                                                            Results, Innovation, Value, and Efficiency Initiative 42 – Market New and Existing
                                                                            Services (Project Number 14RG016DP000).
Recommendations




                                                                            We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                            questions or need additional information, please contact Kevin H. Ellenberger, director,
                                                                            Data Analysis and Performance, or me at 703-248-2100.

                                                                            Attachment

                                                                            cc:	 Corporate Audit and Response Management
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                    Print                3
Highlights
                    Table of Contents

                                                                            Cover.............................................................................................................1
                                                                            Highlights.......................................................................................................1
                                                                             Background.................................................................................................1
                                                                             What the OIG Found...................................................................................2
Table of Contents




                                                                             What the OIG Recommended.....................................................................2
                                                                            Transmittal Letter...........................................................................................3
                                                                            Findings.........................................................................................................5
                                                                             Introduction.................................................................................................5
                                                                             Conclusion..................................................................................................6
                                                                             Delivering Results, Innovation, Value, and Efficiency 42
                                                                             Project Management...................................................................................6
                                                                            Recommendations........................................................................................8
                                                                             Management’s Comments..........................................................................8
                                                                             Evaluation of Management’s Comments....................................................9
Findings




                                                                            Appendices..................................................................................................10
                                                                             Appendix A: Additional Information........................................................... 11
                                                                               Background ........................................................................................... 11
                                                                               Objective, Scope, and Methodology.......................................................13
                                                                               Prior Audit Coverage..............................................................................14
                                                                             Appendix B: Management’s Comments....................................................15
Recommendations




                                                                            Contact Information.....................................................................................17
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                         Print                      4
Highlights
                    Findings                                                Introduction
                                                                            This report presents the results of our self-initiated audit of the U.S. Postal Service’s Delivering Results, Innovation, Value, and
                                                                            Efficiency (DRIVE) Initiative 42 – Market New and Existing Services (DRIVE 42) (Project Number 14RG016DP000). Our objective
                                                                            was to determine whether the DRIVE 42 initiative used established DRIVE project management processes. See Appendix A for
                                                                            additional information about this audit.

                      The Postal Service uses DRIVE                         The Postal Service uses DRIVE to manage strategic programs designed to close an identified $20 billion revenue and expense
                                                                            gap by fiscal year (FY) 2016. This includes about $16 billion related to legislative efforts to reduce Postal Service prefunding costs
Table of Contents




                    to manage strategic programs to                         in employee retirement benefits and health care. The Postal Service defined 36 key DRIVE initiatives in FY 2011, each addressing
                                                                            a strategic program area. Each initiative consists of roadmaps and projects1 with specific annual and cumulative goals to achieve
                      close a $20 billion revenue and
                                                                            cost-cutting and revenue-growth objectives. DRIVE initiatives are supposed to be bold and aggressive and have measurable
                            expense gap by FY 2016.                         outcomes. The Strategic Management Office (SMO) tracks the Postal Service’s performance and progress toward achieving these
                                                                            goals. The SMO also provides project management guidance and standardized processes for managing program initiatives and
                                                                            reporting to the Executive Leadership Team (ELT).

                                                                            DRIVE 42 consists of five program objectives to market new and existing services with both financial and non-financial impacts.
                                                                            The Shipping Growth and Mail Retention and Growth projects are designed to grow domestic and global shipping and mail
                                                                            revenue by $5.2 billion in FY 2014. Two other projects, USPS.com Optimization and Retail Product Mix and Customer Experience,
                                                                            focus on online revenue and gift card and greeting card programs with a combined revenue goal of $930.5 million for FY 2014.
                                                                            The Brand Health project, which supports growth by producing quarterly reports on Postal Service brand health, does not have a
Findings




                                                                            financial impact.
                           DRIVE 42 consists of five
                                                                            Table 1: DRIVE 42 Revenue Goals Through FY 2017 (In Millions)
                       program objectives to market
                                                                             Measureable
                           new and existing services                         Metric                         FY 2013                FY 2014          FY 2015             FY 2016     FY 2017
                              with both financial and                        Sales Shipping                  $2,500.00             $3,120.00         $3,400.00          $3,500.00    $3,700.00
Recommendations




                                                                             Revenue
                              non-financial impacts.                         Priority Mail
                                                                             International                          NA                     3.60             19.80           21.80        24.00
                                                                             Regional Rate Case
                                                                             Revenue
                                                                             Sales Mail Revenue                1,232.00              2,080.00              TBD             TBD         TBD
                                                                             Online Revenue                       858.00               901.00             946.00           993.00     1,043.00
                                                                             Greeting Card                          11.50                26.70              47.0            54.60       63.30
                                                                             Revenue
                                                                             Gift Card Revenue                        1.20                 2.80              6.70           12.90       30.80
                                                                             Yearly Totals                   $4,602.70             $6,134.10         $4,419.50          $4,582.30    $4,861.10
Appendices




                                                                             Grand Total                                                                                            $24,600.00
                                                                             Source: DRIVE 42 Charter, obtained from the DRIVE BlueShare website.



                    U.S. Postal Service’s Delivering Results, Innovation,   1	   The collection of program level activities critical to the success of an initiative.
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                                                Print              5
Highlights                                                                  Conclusion
                                                     DRIVE 42 managers did not follow established project management processes for the initiative when planning the projected
                                                     overall project metrics and revenue goals of $16.65 billion through FY 2017. Management established an FY 2014 revenue goal of
                                                     $5.2 billion for the shipping revenue and profitable mail projects without a system in place to accurately measure achievement. In
                                                     addition, the goal of increasing online revenue calls for 50 percent less revenue, on average, than the 3 years’ before the DRIVE
                                                     initiative began. Finally, the cumulative goal of the DRIVE 42 initiative was $8 billion less than the combined revenue goals of the
                     The Strategic Management Office underlying projects. We identified $3.4 billion in other impact because of unsupported amounts claimed as increased revenue
                                                     related to the shipping revenue and profitable mail projects. These issues occurred because there is not an independent audit
Table of Contents




                       did not enforce requirements  process within DRIVE to promote accountability and ensure that planned goals are measurable, realistic, and accurate.
                        for the Shipping Growth, Mail
                                                                            Delivering Results, Innovation, Value, and Efficiency 42 Project Management
                           Retention and Growth, and
                                                     DRIVE 42 managers did not follow established project management processes for the initiative when planning overall project
                     USPS.com Optimization projects. metrics and revenue goals of $16.65 billion through FY 2017 because DRIVE lacks an independent audit process to promote
                                                     accountability and ensure that goals are measurable, realistic, and accurate. In two previous audit reports,2 we recommended
                                                     that management implement regular audits of and controls for DRIVE programs and projects. Without a formal independent audit
                                                     process to ensure that initiatives are properly planned and monitored, senior managers use incorrect and inaccurate information to
                                                     manage and evaluate the success of DRIVE 42.

                                                                            The Postal Service’s DRIVE project management process has five phases:
Findings




                                                                            ■■ Initiation – Defining new projects with measurable outcomes.

                                                                            ■■ Planning – Creating and approving work plans to achieve project objectives.

                                                                            ■■ Executing – Performing approved work plans.

                                                                            ■■ Monitoring and Controlling – Tracking, reviewing, managing change, and reporting on progress.
Recommendations




                                                                            ■■ Closing – Ending the project lifecycle, having reviewed outcomes and assessed whether objectives were achieved.

                                                                            The SMO performs an initial assessment process, called rigor testing during the planning phase to ensure the projects contribute
                                                                            to overall program goals. This testing assesses the alignment between the chartered objectives and the roadmaps. One part of
                                                                            the process is to determine whether the initiative contains bold and aggressive goals that are specific, measurable, attainable,
                                                                            realistic, and time bound. The ELT sponsor approved DRIVE 42 in January 2014 after it met all rigor testing requirements.

                                                                            However, the SMO did not enforce planning requirements during the rigor testing process that roadmap owners (RMO)3 set
                                                                            measurable, bold, and aggressive goals for the Shipping Growth, Mail Retention and Growth, and USPS.com Optimization
                                                                            projects. The SMO said they try to ensure the roadmaps are planned as well as possible, but they believe that they do not have
Appendices




                                                                            responsibility for what is included as an initiative or a roadmap. Additionally, the five projects’ goals combined were $8 billion more

                                                                            2	   U.S. Postal Service’s Delivering Results, Innovation, Value, and Efficiency Initiative 6, Improve Employee Availability (Report Number DP-AR-14-001) and Delivering
                                                                                 Results, Innovation, Value, and Efficiency Management (Report Number DP-AR-13-008).
                                                                            3	   The RMO forms and monitors the teams and is responsible for schedule and risk management as part of initiating and executing the project plans.
                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                                                     Print                                               6
Highlights                                                                  than the overall goal set for the DRIVE initiative and the RMO under-reported the amount of the increased revenue achieved from
                                                                            the USPS.com Optimization project. The SMO did not see this as an issue because if the underlying projects exceed this goal,
                                                                            then the overall initiative is a success. The SMO also noted that DRIVE charter goals are expected to be more aggressive than the
                                                                            corporate financial targets, however this is not part of the current DRIVE governance. And in turn, the SMO said roadmap goals
                                                                            are to be more aggressive than the charter goals to ensure the overall charter objectives are met. However, there is no DRIVE
                                                                            guidance concerning this financial goal process. The SMO is updating the DRIVE governance documents to include the financial
                                                                            goal process for future planning.
                            There was no system for
                    measuring goals for the Shipping The goals for the Shipping Growth and the Mail Retention and Growth projects are to increase shipping and mail revenue by
Table of Contents




                                                                            $5.2 billion in FY 2014, but there is no system for measuring these goals. Additionally, the SMO reported achieving $3.4 billion of
                      Growth and the Mail Retention                         the $5.2 billion goal as of May 15, 2014; however the SMO does not have the necessary data to support actual revenue amounts
                                                                            associated with sales goals. The plan was to measure the progress toward the cumulative revenue goal by measuring it against
                                and Growth projects                         all annualized sales, but Postal Service systems do not have the capability to match a recorded sale with the mailing revenue.
                                                                            Consequently, the Postal Service is unable to measure a revenue goal against recorded sales at this time. The Postal Service
                                                                            is developing this ability as part of the DRIVE 30 initiative to improve customer and revenue visibility.4 DRIVE 30 is intended to
                                                                            achieve greater than 90 percent revenue accuracy by 2017.

                                                                            The SMO stated that the ELT is aware that the definition of sales revenue is not actual realized revenue, but was used in place of
                                                                            closed sales as the measurement for the projects’ goals. However, management reports the projects’ successes as revenue in the
                                                                            Technology Management Office System (TMOS), as well as DRIVE portfolio reports to the ELT. The use of conflicting terms for the
Findings




                                                                            same goal can lead to confusion and does not accurately describe the projects’ results.
                         Additionally, the USPS.com
                                                                            Additionally, the USPS.com Optimization goal for online revenue growth was not bold and aggressive. The project goal was less
                      Optimization goal was not bold                        than actual results before DRIVE 42. The roadmap’s cumulative goal of $4.7 billion of online revenue growth by FY 2017 is based
                                                                            on a 5 percent increase for each year. However, during the 3 years before the initiative began online revenue increased by more
                                    and aggressive.
                                                                            than 10 percent, on average. This occurred, according to the manager, Digital Marketing, because the goals were established
                                                                            without quantitative analysis. Instead, the previous year’s target goal was just increased. During the audit, the executive director,
                                                                            Brand Marketing explained that the project goal was planned for lower growth as a result of marketplace trends, as well as
Recommendations




                                                                            planned activities for the upcoming year. However, this information was not contained in planning documentation nor validated
                                                                            during rigor testing. Further, the SMO did not perform independent audits to ensure roadmap goals aligned with the DRIVE 42
                                                                            charter. As a result, the combined goal of the five roadmaps is $24.6 billion while the overall DRIVE 42 charter calls for a revenue
                                                                            increase of $16.65 billion, about an $8 billion dollar variance.

                                                                            Additionally, we identified that the monitoring and controlling process was not followed to validate actual financial metrics for
                                                                            the USPS.com Optimization project. Consequently, the RMO under-reported revenue by $4 million, reporting $260.1 million
                                                                            rather than the actual $264.2 million in online revenue. During the audit, the SMO, RMO, and Finance Department corrected the
                                                                            information and process; therefore, we are not making a recommendation on this issue.

                                                                            We are also not making a recommendation concerning the need for the SMO to implement regular independent audits and
Appendices




                                                                            controls for each program at the project management level. The U.S. Postal Service Office of Inspector General (OIG) has already
                                                                            made this recommendation in its two previous DRIVE audits.

                                                                            4	   The objective of DRIVE 30, Achieve 100% Customer & Revenue Visibility is to establish standardized Postal Service revenue reporting protocols and systems across
                                                                                 functional groups to achieve complete, accurate, and valid revenue data.
                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                                                   Print                                              7
Highlights
                    Recommendations                                         We recommend the director, Strategic Planning:

                                                                            1.	 Revise the Delivering Results, Innovation, Value, and Efficiency Initiative 42 charter description to include goals that can be
                                                                                accurately measured.

                                                                            2.	 Require initiative leads to follow established criteria to set bold and aggressive roadmap goals beyond past performance.

                        We recommend management                             3.	 Revise the Delivering Results, Innovation, Value and Efficiency Initiative 42 charter to reflect the actual projected revenue
                                                                                amount of the underlying projects.
Table of Contents




                     follow established criteria to set
                      bold and aggressive goals that                        Management’s Comments
                        can be accurately measured.                         Management did not comment on the findings in this report, agreed with recommendation 1, did not agree with recommendation 2,
                                                                            and partially agreed with recommendation 3.

                                                                            Regarding recommendation 1, management agreed to continue to review and modify DRIVE charters per their DRIVE governance
                                                                            procedures. They will assure that all metrics presented in charters are clearly defined and supported by systems that can
                                                                            accurately measure progress toward the targets. The target implementation date is September 15, 2014.

                                                                            Regarding recommendation 2, management did not agree and stated that initiative leaders and the ELT are responsible for setting
                                                                            specific targets and determining the appropriate thresholds for boldness or aggressiveness of a DRIVE initiative.
Findings




                                                                            Regarding recommendation 3, management agreed, in part, stating they will work with the initiative leaders and ELT sponsor to
                                                                            correct the error in the DRIVE 42 charter to reflect the value of the listed objectives and metrics by September 15, 2014. The SMO
                                                                            will continue to provide guidance on creating a robust portfolio of subordinate programs needed to achieve the overall charter
                                                                            objective. However, management stated that, in some cases, it will be reasonable and expected that the cumulative value of the
                                                                            roadmap targets will be greater than the overall initiative target.
Recommendations




                                                                            See Appendix B for management’s comments in their entirety.
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                           Print                                    8
Highlights                                                                  Evaluation of Management’s Comments
                                                                            The OIG considers management’s comments for recommendations 1 and 3 to be responsive to the recommendations and
                                                                            corrective actions should resolve the issues identified in the report. We consider management’s comments on recommendation 2
                                                                            to be unresponsive.

                                                                            Management disagreed with recommendation 2 to require initiative leads to follow the established criteria to set bold and
                                                                            aggressive roadmap goals beyond past performance. They stated that it is the responsibility of the ELT to set specific targets
                                                                            for each initiative and determine the appropriate threshold for boldness and aggressiveness. However, DRIVE governance
Table of Contents




                                                                            documentation assigns the SMO the responsibility to promote a rigorous roadmap development process. This process is designed
                                                                            to ensure roadmaps are well-defined and support bold and significant DRIVE charter objectives and impacts. Further, it is the
                                                                            responsibility of the SMO to oversee the DRIVE process and ensure the DRIVE initiatives are on track to meet the Postal Service’s
                                                                            ambitious performance and financial goals. Yet, as we noted, one roadmap’s planned goal for increasing online revenue was less
                                                                            than ambitious. The growth goal, on average, is 50 percent less than the amount of revenue accomplished outside of DRIVE for
                                                                            the previous 3 years.

                                                                            Although we will not elevate this disagreement for resolution at this time, we will continue to address this subject in future audits of
                                                                            the DRIVE initiatives.
Findings
Recommendations
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                            Print                                    9
Highlights
                    Appendices

                                                                            Appendix A: Additional Information........................................................... 11
                                                                             Background ........................................................................................... 11
                                                                             Objective, Scope, and Methodology.......................................................13
                           Click on the appendix title
                                                                             Prior Audit Coverage..............................................................................14
Table of Contents




                           to the right to navigate to                      Appendix B: Management’s Comments....................................................15
                                 the section content.
Findings
Recommendations
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                 Print                     10
Highlights          Appendix A: Additional                                  Background
                    Information                                             The Postal Service established 36 DRIVE initiatives in FY 2011 to improve business strategy. DRIVE aims to reduce the
                                                                            Postal Service’s reported $20 billion gap between revenue and expenses by 2016 through data-driven program and project
                                                                            management. However, almost $16 billion of that gap depends on the legislative actions of the U.S. Congress. Annually, the
                                                                            Postal Service reviews and adjusts the portfolio of initiatives to achieve its strategic objectives. There are 21 DRIVE initiatives in
                                                                            FY 2014 aligned with four core strategies5 and eight operational objectives.6

                                                                            The DRIVE organizational structure refers to three levels of management as initiatives, roadmaps, and projects. Roadmaps
Table of Contents




                                                                            are the collection of program-level activities critical to the success of an initiative. They consist of projects with clearly identified
                                                                            impacts and indicators, milestones, interdependencies, and risks (see Figure 1).

                                                                            Figure 1: DRIVE Pyramid
Findings




                                                                            Source: TMOS DRIVE User Guide, page 8.
Recommendations
Appendices




                                                                            5	   Improve customer experience; compete for the package business; strengthen the business to consumer channel; and build a leaner, smarter, and faster organization.
                                                                            6	   Grow revenue from innovation, core products and markets, establish the digital platform; optimize cost of operations and infrastructure to match future demands; build
                                                                                 competitive workforce of the future; improve customer experience measurement processes; leverage technology to drive business value; strengthen financial and risk
                                                                                 management capabilities; and assure executive transparency.
                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                                                      Print                                                 11
Highlights                                                                  Each year ELT sponsors present their recommendations for initiatives to include in the DRIVE portfolio. ELT sponsors look for
                                                                            initiatives that:

                                                                            ■■ Are bold and have significant and measurable outcomes that:
                                                                                     §§ Have greater than $50 million in revenue contribution or cost reduction.
                                                                                     §§ Improve key stakeholder alignment.
                                                                                     §§ Greatly enhance key capabilities.
                                                                                     §§ Grow revenue from new products/markets/customers.
Table of Contents




                                                                            ■■ Aggressively address cost in the next few years to get ahead of revenue plan.

                                                                            ■■ Are critical to either the short- or long-term success of the Postal Service.

                                                                            ■■ Require extensive cross-enterprise coordination and ELT visibility.

                                                                            ■■ Merit using top staff and resources.

                                                                            The Postal Service’s DRIVE guidelines have five key project management phases:7

                                                                            ■■ Initiation.
Findings




                                                                                        §§ Define a new project, complete a project charter with measurable objectives, and authorize project launch.

                                                                            ■■ Planning.
                                                                                     §§ Define the course of action to achieve project objectives; and create and receive approval for the project scope,
                                                                                         schedule, budget, resources, quality standards, and risk management plan.

                                                                            ■■ Executing.
Recommendations




                                                                                     §§ Perform the defined work, including managing the team and approving any changes to the plan.

                                                                            ■■ Monitoring and Controlling.
                                                                                     §§ Track, review, and report on the progress of the project. Analyze variances to plan schedules, costs and scope; and
                                                                                         manage any necessary course corrections.

                                                                            ■■ Closing.
                                                                                     §§ Receive sign-off that the project outcomes have met the objectives, close all activities, and archive documents and
                                                                                        lessons learned.
Appendices




                                                                            7	   The Project Management Institute’s Project Management Book of Knowledge and the International Organization for Standardization (ISO) Committee for Project
                                                                                 Management ISO Standard 21500 use similar terminology.
                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                                                  Print                                         12
Highlights                                                                  The SMO manages projects through the TMOS by tracking performance and progress on milestones, risk, impacts, and
                                                                            roadmap completion. The TMOS provides a color-coded traffic light dashboard view for executive and cross-functional insight
                                                                            into strategies, programs, and projects. The red, yellow, and green traffic light colors show variances from planned financial
                                                                            and non-financial metrics. The SMO has standardized processes for managing program initiatives and reporting to the ELT.
                                                                            These include criteria to approve and manage initiatives such as the uniform formatting of charters, quarterly metric reporting,
                                                                            and communication with project managers. The SMO prefers each initiative is staffed with a person who has completed DRIVE
                                                                            project management training. The SMO provides this training using classroom and virtual training sessions, online resources, and
                                                                            individual guidance.
Table of Contents




                                                                            Objective, Scope, and Methodology
                                                                            Our objective was to determine whether the DRIVE 42 initiative used established DRIVE project management processes.
                                                                            To accomplish our objective we:

                                                                            ■■ Reviewed procedures and criteria related to establishing DRIVE initiatives.

                                                                            ■■ Discussed DRIVE 42 project management with Brand Marketing personnel, including establishment of metrics and milestones
                                                                               that align with overall portfolio goals.

                                                                            ■■ Reviewed and discussed testing of the roadmaps, milestones, and evaluation of the established metrics with the SMO and
                                                                               Finance personnel to determine whether the DRIVE planning processes were followed and there was alignment of the
Findings




                                                                               established goals within the DRIVE portfolio.

                                                                            ■■ Reviewed requests submitted to the SMO for changes to established milestones and metrics and the subsequent approval
                                                                               process. Discussed the approval process with the SMO and RMOs.

                                                                            ■■ Reviewed project management information, guidelines, training material, and support provided by the SMO.
Recommendations




                                                                            ■■ Reviewed available reports in the Postal Service’s TMOS to obtain information on DRIVE 42 project management and project
                                                                               lifecycles.

                                                                            ■■ Discussed the evaluation of established metrics and validation of reported results with Finance personnel. We reviewed and
                                                                               compared documentation used by Finance when evaluating the establishment of project metrics with TMOS reported metrics.

                                                                            ■■ Discussed the reliability of data systems and reports used to measure success of DRIVE 42 with Finance, Brand Marketing,
                                                                               and Sales personnel.

                                                                            We conducted this performance audit from February through September 2014, in accordance with generally accepted government
                                                                            auditing standards and included such tests of internal controls as we considered necessary under the circumstances. Those
Appendices




                                                                            standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                                            our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable basis for
                                                                            our findings and conclusions based on our audit objective. We discussed our observations and conclusions with management on
                                                                            July 30, 2014, and included their comments where appropriate.
                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                       Print                                 13
Highlights                                                                  We assessed the reliability of computer-generated data from the TMOS by comparing key information against separately prepared
                                                                            documents provided by management. We determined that the data were sufficiently reliable for the purposes of this report.

                                                                            Prior Audit Coverage
                                                                            Report Title                            Report Number                    Final Report Date                Monetary Impact
                                                                            U.S. Postal Service’s Delivering
                                                                            Results, Innovation, Value, and          DP-AR-14-001                         3/7/2014                           None
                                                                            Efficiency Initiative 6, Improve
Table of Contents




                                                                            Employee Availability
                                                                            Report Results:
                                                                            The audit found that the DRIVE 6 initiative did not use established DRIVE project management practices. The five projects
                                                                            comprising the initiative were being accomplished outside of DRIVE. This occurred because there was no separation of duties
                                                                            between the DRIVE initiative lead and RMO. We also noted that there was no independent internal audit process to oversee DRIVE
                                                                            management. Management agreed with our recommendations but disagreed that changes to projects were not made because the
                                                                            same person was both initiative lead and RMO. Management also stated that they used established DRIVE project development
                                                                            management processes and asserted that DRIVE governance does not prohibit initiatives that existed prior to DRIVE.
                                                                            Delivering Results, Innovation,
                                                                            Value, and Efficiency                    DP-AR-13-008                        6/19/2013                           None
                                                                            Management
                                                                            Report Results:
                                                                            The audit found the Postal Service’s DRIVE program compares favorably to best-in-class program management practices; however,
Findings




                                                                            it does not ensure that projects will be successful. DRIVE does not use an important best practice that requires regular audits and
                                                                            controls for each project at the program manager level. Further, a formal policy supporting the overall program management process
                                                                            has not been developed. Management agreed with our findings and recommendations yet thinks DRIVE does control and provide
                                                                            reviews or “audits” of strategic programs and projects through bi-weekly Deep-Dive meetings.
Recommendations
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                                         Print                                  14
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                              Print   15
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                              Print   16
Highlights
Table of Contents
Findings




                                                                               Contact us via our Hotline and FOIA forms, follow us on social
                                                                            networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                                   or abuse. Stay informed.
Recommendations




                                                                                                  1735 North Lynn Street
                                                                                                 Arlington, VA 22209-2020
                                                                                                       (703) 248-2100
Appendices




                    U.S. Postal Service’s Delivering Results, Innovation,
                    Value, and Efficiency Initiative 42 – Market New and
                    Existing Services
                    Report Number DP-AR-14-005                                                                                                       Print   17
